    ~ SIR-VICts
 ",""             &....
                                                                                                      Office of Inspector General
t~ ~                      DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Audit Services



V::;jr-
 ~·~~ APR 0 6 2009
        ..a
                                                                                                     Region VII
                                                                                                     601 East 12th Street
                                                                                                     Room 0429
                                                                                                     Kansas City, Missouri 64106
                      Report Number: A-07-09-00307

                      Ms. Karen Abraham
                      Senior Vice President, Finance and Administration
                      Blue Cross Blue Shield of Arizona
                      P.O. Box 13446
                      8220 North 23 rd Avenue
                      Phoenix, Arizona 85021

                      Dear Ms. Abraham:

                      Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                      General (DIG), final report entitled "Review of the Pension Costs Claimed for Medicare
                      Reimbursement by Blue Cross Blue Shield of Arizona for Fiscal Year 2006." We will forward a
                      copy of this report to the HHS action official noted on the following page for review and any
                      action deemed necessary.

                      The HHS action official will make final determination as to actions taken on all matters reported.
                      We request that you respond to this official within 30 days from the date of this letter. Your
                      response should present any comments or additional information that you believe may have a
                      bearing on the final determination.

                      Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, DIG reports generally are made
                      available to the public to the extent that information in the report is not subject to exemptions in
                      the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                      If you have any questions or comments about this report, please do not hesitate to call me at
                      (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                      through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00307
                      in all correspondence.

                                                                     Sincerely,



                                                                    Patrick . Cogley
                                                                    Regional Inspector General
                                                                     for Audit Services

                      Enclosure
Page 2 – Ms. Karen Abraham


Direct Reply to HHS Action Official:

Mr. Timothy Hill, Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF THE PENSION COSTS
   CLAIMED FOR MEDICARE
     REIMBURSEMENT BY
 BLUE CROSS BLUE SHIELD OF
        ARIZONA FOR
      FISCAL YEAR 2006




                    Daniel R. Levinson
                     Inspector General

                       MApril
                         arch2009
                              2009
                      A-07-09-00307
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.


 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Arizona (Arizona) administered Medicare Part A operations under a
cost reimbursement contract with the Centers for Medicare & Medicaid Services (CMS) until its
contractual relationship was terminated on September 30, 2006. The effective closing date for
the Medicare segment was September 30, 2006.

OBJECTIVE

Our objective was to determine the allowability of pension costs claimed by Arizona for
Medicare reimbursement for fiscal year (FY) 2006.

SUMMARY OF FINDING

Arizona did not claim $1,635 of allowable pension costs on its Final Administrative Cost
Proposal (FACP) for FY 2006. This underclaim occurred primarily because Arizona incorrectly
computed the allowable pension costs for the Other segment. Therefore, Arizona did not claim
$1,635 of allowable pension costs.

RECOMMENDATION

We recommend that Arizona revise its FACP for FY 2006 to claim the additional allowable
pension costs of $1,635.

AUDITEE COMMENTS

In written comments on our draft report, Arizona agreed with our recommendation. Arizona’s
comments are included in their entirety as Appendix B.




                                               i
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.....................................................................................................................1

          BACKGROUND ............................................................................................................1
              Blue Cross Blue Shield of Arizona.....................................................................1
              Medicare Reimbursement ...................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................1
               Objective .............................................................................................................1
               Scope...................................................................................................................1
               Methodology .......................................................................................................2

FINDING AND RECOMMENDATION................................................................................2

          FEDERAL REQUIREMENTS.......................................................................................2

          PENSION COSTS UNDERCLAIMED .........................................................................3

          RECOMMENDATION ..................................................................................................3

          AUDITEE COMMENTS................................................................................................3

APPENDIXES

          A – STATEMENT OF ALLOWABLE PENSION COSTS
              FOR FISCAL YEAR 2006

          B – AUDITEE COMMENTS




                                                                    ii
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Arizona

Blue Cross Blue Shield of Arizona (Arizona) administered Medicare Part A operations under a
cost reimbursement contract with the Centers for Medicare & Medicaid Services (CMS) until its
contractual relationship was terminated on September 30, 2006. The effective closing date for
the Medicare segment was September 30, 2006.

Medicare Reimbursement

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413; and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning in fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs claimed by Arizona for
Medicare reimbursement for fiscal year (FY) 2006.

Scope

We reviewed pension costs that Arizona claimed for Medicare reimbursement on its Final
Administrative Cost Proposal (FACP) for FY 2006. Achieving the objective did not require that
we review Arizona’s overall internal control structure. However, we did review the internal
controls related to the pension costs claimed for Medicare reimbursement to ensure that the
pension costs were allocable in accordance with the CAS and allowable in accordance with the
FAR.

We performed fieldwork at our field office, located in Jefferson City, Missouri.




                                                1
Methodology

We reviewed the applicable portions of the Medicare contracts, FAR, and CAS to determine the
Federal requirements for pension plans.

We identified Arizona’s CAS pension costs for the Medicare segment and Other segment. We
also determined the extent to which Arizona funded CAS pension costs with contributions to the
pension trust fund and accumulated prepayment credits. We based our calculations on separately
computed CAS pension costs for the Medicare segment and the Other segment CAS pension
costs. The CMS Office of the Actuary calculated the allocable CAS pension costs based on
Arizona’s historical practices and on the results of our segmentation review (“Review of the
Pension Segmentation Requirements for the Qualified Pension Plan at Blue Cross Blue Shield of
Arizona, a Terminated Medicare Contractor, for the Period January 1, 2005, to September 30,
2006” A-07-09-00306). Appendix A contains details on the pension costs and contributions.

In performing our review, we used information that Arizona’s actuarial consulting firm provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined Arizona’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Arizona did not claim $1,635 of allowable pension costs on its FACP for FY 2006. This
underclaim occurred primarily because Arizona incorrectly computed the allowable pension
costs for the Other segment. Therefore, Arizona did not claim $1,635 of allowable pension
costs.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. Appendix B,
section XVI, of the contracts states: “The calculation of and accounting for pension costs
charged to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.




                                               2
CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

PENSION COSTS UNDERCLAIMED

Arizona did not claim $1,635 of allowable pension costs on its FACP for FY 2006.

For FY 2006, Arizona claimed pension costs of $357,930 for Medicare reimbursement. We
calculated the allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the Other segment, in accordance with CAS 412 and 413. We determined
that the allowable CAS pension costs for FY 2006 were $359,565.

The underclaim occurred primarily because Arizona incorrectly computed the allowable pension
costs for the Other segment. Arizona separately computed the CAS pension costs for the
Medicare segment and the Other segment. However, when determining the Other segment
allowable pension costs, Arizona incorrectly subtracted the Medicare segment CAS pension
costs from the Other segment CAS pension costs. Therefore, Arizona used an incorrect CAS
pension cost amount when calculating the allowable pension costs for the Other segment. As a
result, Arizona did not claim $1,635 of allowable pension costs.

RECOMMENDATION

We recommend that Arizona revise its FACP for FY 2006 to claim the additional allowable
pension costs of $1,635.

AUDITEE COMMENTS

In written comments on our draft report, Arizona agreed with our recommendation. Arizona
stated that it will work with CMS to increase claimed pension costs by $1,635 on settlement of
the FACP for FY 2006.

Arizona’s comments are included in their entirety as Appendix B.




                                                3
APPENDIXES
                          BLUE CROSS BLUE SHIELD OF ARIZONA                                    APPENDIX A
                        STATEMENT OF ALLOWABLE PENSION COSTS                                     Page 1 of 3
                                 FOR FISCAL YEAR 2006


                                                           Total              Other            Medicare
        Date                Description                   Company            Segment           Segment

        2005      Contributions                     1/             $0                $0                 $0
       8.00%      Discount For Interest             2/              0                 0                  0
                  Present Value Contributions       3/              0                 0                  0
                  Prepayment Credit Applied         4/      8,226,794         7,931,101            295,693
                  Present Value Of Funding          5/      8,226,794         7,931,101            295,693

                  CAS Funding Target                6/      8,226,794         7,931,101            295,693
                  Percentage Funded                 7/                          100.00%            100.00%
                  Funded Pension Cost               8/                        7,931,101            295,693
                  Allowable Interest                9/                                0                  0
                  Allocable Pension Cost           10/                        7,931,101            295,693




        2006      Contributions                                    $0                $0                 $0
       8.00%      Discount For Interest                             0                 0                  0
                  Present Value Contributions                       0                 0                  0
                  Prepayment Credit Applied                 6,774,927         6,547,857            227,070
                  Present Value Of Funding                  6,774,927         6,547,857            227,070

                  CAS Funding Target                        6,774,927         6,547,857            227,070
                  Percentage Funded                                             100.00%            100.00%
                  Funded Pension Cost                                         6,547,857            227,070
                  Allowable Interest                                                  0                  0
                  Allocable Pension Cost           11/                        6,547,857            227,070
        2006      Fiscal Year Pension Cost         12/                        8,530,632            300,993
                  Medicare LOB Percentage*         13/                            0.76%             97.92%

                  Allowable Pension Cost           14/      $359,565            $64,833           $294,732


     * Line of business

FOOTNOTES

   1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue
      Service Form 5500 reports. The contributions included deposits made during the plan year and
      accrued contributions deposited after the end of the plan year but within the time allowed for filing
      tax returns. The contributions allocated to the Medicare segment were determined during the
      pension segmentation review (A-07-09-00306). The amounts shown for the Other segment
      represent the difference between the Total Company and the Medicare segment.
                        BLUE CROSS BLUE SHIELD OF ARIZONA                                   APPENDIX A
                      STATEMENT OF ALLOWABLE PENSION COSTS                                    Page 2 of 3
                               FOR FISCAL YEAR 2006

 2/ We subtracted the interest that is included in the contributions deposited after the beginning of the
    valuation year to discount the contributions back to their beginning-of-the-year value. For purposes
    of this Appendix, we computed the interest as the difference between the present value of
    contributions (at the valuation interest rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of
    deposit back to the first day of the plan year. For purposes of this Appendix, we deemed deposits
    made after the end of the plan year to have been made on the final day of the plan year, consistent
    with the method mandated by the Employee Retirement Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous
    year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year
    Cost Accounting Standards (CAS) funding target. A prepayment credit is carried forward, with
    interest, to fund future CAS pension costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits.
    This is the amount of funding that is available to cover the CAS funding target measured at the first
    day of the plan year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding
    requirement of the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was
    funded during the plan year. Because any funding in excess of the CAS funding target is accounted
    for as a prepayment in accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not
    exceed 100 percent. We computed the percentage funded as the present value of funding divided
    by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded
    to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent
    funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in
    the same proportion as the interest on contributions bears to the present value of contributions.
    However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit
    the allowable interest to exceed the interest that would accrue if the CAS funding target, less the
    prepayment credit, were funded in four equal installments deposited within 30 days after the end of
    the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract
    cost purposes.

11/ Arizona terminated its Medicare contract on September 30, 2006. Therefore, the 2006 allocable
    pension costs were for only a 9-month period (January 1 to September 30).
                            BLUE CROSS BLUE SHIELD OF ARIZONA                                  APPENDIX A
                        STATEMENT OF ALLOWABLE PENSION COSTS                                      Page 3 of 3
                                       FOR FISCAL YEAR 2006
12/ As stated above in footnote 11, the 2006 allocable pension costs were for a 9-month period. To
    calculate the fiscal year (FY) 2006 allocable pension costs, we calculated the FY pension costs as
    1/4 of the prior year’s costs plus all of the current year’s costs. Costs charged to the Medicare
    contract should consist of the Medicare segment’s direct pension costs plus pension costs
    attributable to indirect Medicare operations.

13/ We calculated allowable pension costs of the Medicare and Other segments based on the Medicare
    line of business percentage for each segment. We obtained the percentages from documents
    provided by Arizona.

14/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the
    Medicare line of business percentage.
APPENDIX B
